 

No. 20-

In the Supreme Court of the United States
UNITED STATES OF AMERICA, ex rel.
CONCILIO DE SALUD INTEGRAL DE LOIZA, INC. (“CSILO”)

Petitioners,
v.

J.C, REMODELING, INC. AND JOSE GARCIA-SUAREZ

Respondents

CERTIFICATE OF SERVICE

J HEREBY CERTIFY that the Petitioner's Petition for Writ of Certiorari was
served to the Court via the Court’s electronic system on December 3"4, 2020 and via
the United States Postal Service Express Mail on December 3*4, 2020, was served to
Counselor David O. Martorani-Dale via the United States Postal Service Express
Mail on December 3r4, 2020 at his address United States Attorney’s Office, Civil
Division, 350 Carlos Chardon Ave., Torre Chardon, Suite 1201, Hato Rey, PR 00918,
Counselor Carlos J. Sagardia-Abreu via the United States Postal Service Express
Mail on December 374, 2020 at his postal address of 1353 Ave. Luis Vigoreaux PMB
678, Guaynabo, PR 00966 and Counselor Maria Celeste Colberg-Guerra via the
United States Postal Service Express Mail on December 3'4, 2020 at her postal

address of PO Box 16636, San Juan, PR 00908-6636.

 
RESPECTFULLY SUBMITTED, in San Juan, Puerto Rico, this 24 of

December, 2020.

 

1420 Fernandez Juncos Ave.

San Juan, PR 00909

Mobile: (787) 565-3477

Telephone: (787) 727-5710

Facsimile: (787) 268-1835

E-Mail: victorriverarios@rcrtrblaw.com

Counsel for Petitioner
